OIG Audit Report GR-40-07-006

Office of Justice Programs, Bureau of Justice Assistance, Mississippi Automated System Project Grants Awarded to the University of Southern Mississippi, Hattiesburg, Mississippi

Audit Report GR-40-07-006


July 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has completed an audit of grants authorized by the Edward Byrne Memorial State and Local Law Enforcement Assistance Discretionary Grants Program and awarded by the Office of Justice Programs (OJP), to the University of Southern Mississippi (USM) for the Mississippi Automated System Project (MASP).  The purpose of the MASP is to create a public safety data information sharing system to support all first responder agencies within the coastal Mississippi counties of Hancock, Harrison, and Jackson.  First responder agencies include law enforcement agencies, fire departments, and emergency medical services.  Between April 2002 and September 2005, OJP awarded the USM two grants totaling $12.9 million to implement the MASP to improve the safety of citizens and public safety personnel.  The project expands the existing radio system to a fully-integrated law enforcement information sharing system that covers three Mississippi coastal counties.  The USM plans expansion of the information system beyond the initial three counties to provide fully-integrated services to adjacent Louisiana and Alabama locations.  Plans also call for further expansion to a variety of other criminal justice agencies within the Gulf South region.  Total cost of the completed project is estimated to be $25 million. 
The MASP has five automated information-sharing applications.  These five applications are:  (1) Computer Aided Dispatch, (2) Law Enforcement Records Management System, (3) Fire Management System, (4) Jail Management System, and (5) Mugshot/Fingerprint System.  At the time of our audit, 21 agencies within the three coastal counties were using one or more of the five applications. 
 We tested compliance with essential grant conditions pertaining to grant accomplishments, reporting, grant-fund draw downs, budget management and control, program income, local matching requirements, grant expenditures, and monitoring of subrecipients. In addition, we tested the accounting records to determine if reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grants. As a result of the concerns listed below, we identified $3,198,625 in questioned costs.1 Our audit findings include the following. 

 The first objective has been met with the 21 agencies using the system. The USM is delayed in meeting the second and third objectives because of a default by the software vendor. 
 The USM filed 5 grant progress reports from 2 to 72 days late. 
 The USM transferred funds between direct cost categories in excess of 10 percent of the total award amount without prior OJP approval. The excess transfers totaled $3,198,625. 
 A previously identified finding in a prior audit concerning the inventory of equipment items purchased with grant funds continued to exist. As a result, the USM: (1) did not include 7 pieces of equipment costing $5,219 on its inventory list; (2) could not trace 93 equipment items purchased with grant funds to supporting purchase orders; (3) did not include two items of equipment purchased with grant funds on the list of items officially transferred to an agency participating in the project; (4) could not locate one item assigned to a participating agency but not officially transferred to that agency; and (5) transferred two items to an agency participating in the project, but the items remained on the USM’s inventory list. 

 These concerns are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds put to better use. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for a definition of questioned costs. 








Return to OIG Home Page